APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
[filed June 9, 2020]
At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 9th day of June, two thousand twenty.
_______________________________
Larry Thompson,
Plaintiff-Appellant,
v.
Police Officer Pagiel Clark,
Shield #28472, Police Officer
Paul Montefusco, Shield#
10580, Police Officer Phillip
Romano, Shield # 6295, Police
Officer Gerard Bouwmans,
Shield # 2102,

ORDER
Docket No: 19-580

Defendants-Appellees,
City of New York, Police Officers
John and Jane Does 1- 10,
Police Officer Warren Rodney,
Shield # 13744, Sergeant Anthony
Bertram, Shield #277,
Defendants.
_______________________________

Appellant, Larry Thompson, filed a petition for
panel rehearing, or, in the alternative, for rehearing

2a
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe, Clerk
[seal]

3a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
[filed Feb. 24, 2020]
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY ORDER FILED ON OR AFTER JANUARY 1,
2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT’S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York on the 24th day of
February, two thousand twenty.
Present:

ROSEMARY S. POOLER,
GERARD E. LYNCH,
MICHAEL H. PARK,
Circuit Judges.

4a
______________________________
LARRY THOMPSON,
Plaintiff-Appellant,
v.

19-580-cv

POLICE OFFICER PAGIEL CLARK,
SHIELD #28472, POLICE OFFICER
PAUL MONTEFUSCO, SHIELD#
10580 POLICE OFFICER PHILLIP
ROMANO, SHIELD # 6295 POLICE
OFFICER GERARD BOUWMANS,
SHIELD # 2102,
Defendants-Appellees.
CITY OF NEW YORK, POLICE
OFFICERS JOHN AND JANE DOES
1-10, POLICE OFFICER WARREN
RODNEY, SHIELD # 13744, SERGEANT
ANTHONY BERTRAM, SHIELD #277,
Defendants.
______________________________

Appearing for Plaintiff-Appellant:
Amir H. Ali, Roderick & Solange MacArthur
Justice Center, Washington, D.C.
Appearing for Defendants-Appellee:
Kevin Osowski, Assistant Corporation Counsel
(Devin Slack, Richard Dearing, on the brief),
for Georgia M. Pestana, Acting Corporation
Counsel of the City of New York, New York
City Law Department, New York, N.Y.
Appeal from the United States District Court for the
Eastern District of New York (Weinstein, J.).

5a
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED that the order of said District Court be and
it hereby is AFFIRMED.
Plaintiff-Appellant Larry Thompson appeals from
the February 8, 2019 final judgment entered in the
United States District for the Eastern District of New
York (Weinstein J.) granting judgment as a matter
of law in favor of the defendants pursuant to Rule 50
on Thompson’s 42 U.S.C. § 1983 claim for malicious
prosecution due to his failure to establish favorable
termination of his criminal case, and entering judgment pursuant to a jury verdict in favor of defendants on Thompson’s other section 1983 claims. We
assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the issues on appeal.
We review de novo a district court’s decision
granting judgment as a matter of law pursuant to
Rule 50. See Jocks v. Tavernier, 316 F.3d 128, 134 (2d
Cir. 2003). We review challenges to jury instructions
de novo. United States v. Quattrone, 441 F.3d 153,
177 (2d Cir. 2006).
With respect to the malicious prosecution claim,
Thompson argues that he should not be required to
prove favorable termination because it is not a substantive element of the claim. In Lanning v. City of
Glens Falls, 908 F.3d 19 (2d Cir. 2018), we acted to
“dispel any confusion among district courts” and held
that section 1983 malicious prosecution claims require “affirmative indications of innocence to establish favorable termination.” Id. at 25 (internal quotation marks omitted). We rejected the more permis-

6a
sive standard of proof for malicious prosecution
claims asserted under New York state law.
We also affirmed in Lanning, the rule first announced in Hygh v. Jacobs, 961 F.2d 359, 368 (2d
Cir. 1992), that dismissal under section 170.40 of the
New York Criminal Procedure Law is by itself insufficient to satisfy the favorable termination requirement as a matter of law. In Lanning, the complaint
did not specify a basis for the dismissal. Both the
plaintiff and the defendants asserted that the complaint had been dismissed at least in part due to jurisdictional reasons. Here, too, neither the prosecution nor the court provided any specific reasons about
the dismissal on the record. Also, in an evidentiary
hearing before the district court, Thompson’s statecourt defense counsel testified that she was unable to
point to any affirmative indication of innocence.
“When a person has been arrested and indicted, absent an affirmative indication that the person is innocent of the offense charged, the government’s failure to proceed does not necessarily ‘impl[y] a lack of
reasonable grounds for the prosecution.’” Lanning,
908 F.3d at 28 (quoting Conway v. Village of Mount
Kisco, 750 F.2d 205, 215 (2d Cir. 1984). In fact, the
district court here held an evidentiary hearing and
found that the evidence of Thompson’s guilt of the
crime of obstruction of governmental administration
and resisting arrest was substantial, and that dismissal was likely based on factors other than the
merits. We are “bound by the decisions of prior panels until such time as they are overruled either by an
en banc panel of our Court or by the Supreme
Court.” United States v. Wilkerson, 361 F.3d 717, 732
(2d Cir. 2004). Accordingly, we agree with the district court that it was bound by Lanning to enter

7a
judgment in favor of the defendants on Thompson’s
malicious prosecution claim.
With respect to Thompson’s challenge to the jury
instruction assigning him the burden of proof with
respect to whether exigent circumstances authorized
the police officers’ warrantless search of his apartment, we find no error. In Ruggiero v. Krezeminski,
928 F.2d 558 (2d Cir. 1991), we held that a warrantless search, though presumptively unreasonable,
“cannot serve to place on the defendant the burden
of proving that the official action was reasonable.” Id.
at 563; see also Harris v. O’Hare, 770 F.3d 224, 234
n.3 (2d Cir. 2014) (“Of course, as in all civil cases,
‘the ultimate risk of non-persuasion must remain
squarely on the plaintiff in accordance with established principles governing civil trials.’” (quoting
Ruggiero, 928 F.2d at 563)).
We have considered the remainder of Thompson’s
arguments and find them to be without merit. Accordingly, the judgment of the district court hereby is
AFFIRMED.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[seal]

8a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed March 12, 2019]
LARRY THOMPSON,
Plaintiff,
– against –
Police Officer PAGIEL CLARK;
Police Officer PAUL
MONTEFUSCO; Police
Officer GERARD BOUWMANS;
Police Officer PHILLIP
ROMANO,

MEMORANDUM
AND ORDER
14-CV-7349

Defendants.
JACK B. WEINSTEIN, Senior District Judge:
Parties
Larry Thompson

Counsel
David A. Zelman
612 Eastern Parkway
Brooklyn, NY 11225
718-604-3072
Cary London
30 Broad Street, Suite 702
New York, NY 10004
212-203-1090

Pagiel Clark
Paul Montefusco
Gerard Bouwmans
Phillip Romano

Kavin Suresh Thadani
New York City Law Department
100 Church Street, Rm 3-195 New
York, NY 10007
212-356-2351
Phillip R. DePaul
New York City Law Department
100 Church Street, Rm 3-208 New
York, NY 10007
212-356-2413

9a
TABLE OF CONTENTS
I.
II.

Introduction ........................................................2
Background.........................................................5
A. Warrantless Entry ........................................5
B. Dismissal of Plaintiff’s Criminal Charges ...8
i.
State Criminal Prosecution ..................8
ii. Criminal Court Appearances................9
iii. Evidentiary Hearing ...........................10
III. Law ...................................................................22
A. Burden of Proof for Exigency......................22
i.
Exigent Circumstances Generally......22
ii. Other Circuit Precedent .....................23
iii. Second Circuit Precedent ...................25
iv. Burden Shifting ..................................27
v. Burden of Proof Problem ....................28
B. Termination in Favor of the Accused .........30
IV. Application of Law ...........................................31
A. Exigency Burden .........................................31
B. Favorable Termination ...............................33
V. Conclusion ........................................................36
A. Exigent Circumstances Burden .................36
B. Malicious Prosecution .................................36

10a
I.

Introduction

In this 42 U.S.C. § 1983 civil jury trial, two rules
of law of the Second Circuit have been applied that
can and should be changed: 1) where the police enter
a house without a warrant and rely on exigent circumstances, the burden of proof on non-exigency is
on the plaintiff-householder; and 2) where a civil §
1983 plaintiff must prove his state criminal prosecution ended in a ruling on the merits in his favor, an
ambiguous ruling by the State court is construed as
a ruling that dismissal was not on the merits, that is
to say it was not on a finding of non-guilt.
Both these rules erect an unnecessary barrier to
justice; both improperly limit enforcement of federal
law in civil suits against police officers when they
violate the constitution. They seriously dilute the
force of the federal constitutional protection against
police violators of constitutional rights.
It is trite but still true that a person’s home is
conceptually his castle. This principal was taken
from English common law and chiseled into the
granite of our Constitution. See U.S. Const. amend.
IV (“The right of the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated
. . . . ”); see also Welsh v. Wisconsin, 466 U.S. 740,
748 (1984) (“It is axiomatic that the physical entry of
the home is the chief evil against which the wording
of the Fourth Amendment is directed.” (citation
omitted)). Its origins date as far back as the early
17th century.
[T]he house of every one is to him as his
castle and fortress, as well for his defence against injury and violence, as for

11a
his repose; and although the life of man
is a thing precious and favoured in law;
. . . if thieves come to a man’s house to
rob him, or murder, and the owner of his
servants kill any of the thieves in defence of himself and his house, it is not
felony, and he shall lose nothing . . . .
[E]very one may assemble his friends
and neighbours to defend his house
against violence: but he cannot assemble
them to go with him to the market, or
elsewhere for his safeguard against violence: and the reason of all this is, because domus sua cuique est tutissimum
refugium.
Semayne’s Case, 5 Co. Rep. 91a, 91b, 77 Eng. Rep.
194, 195 (K.B. 1603); see also 4 William Blackstone,
Commentaries 223 (1765–1769) (“And the law of
England has so particular and tender a regard to
the immunity of a man’s house, that it stiles it his
castle . . . .”).
The present case forces a reassessment of this
oft-repeated maxim. It poses questions about what
the ordinary law-abiding citizen can, and should, do
to protect himself and his family from an unwarranted, but possibly lawful, governmental intrusion
into his home. Compare Jason Brennan, When All
Else Fails: The Ethics of Resistance to State Injustice
2, 4 (2019) (“[O]ne pressing question for political
philosophy is what ordinary citizens are licensed to
do in the face of injustice. . . . Instead of exit, voice,
or loyalty, this book defends the fourth option: resistance. . . . [It] includes more active forms of resistance, such as blocking police cars, damaging or
destroying government property, deceiving and lying

12a
to government agents, or combating government
agents.”) with I. Bennett Capers, Criminal Procedure and the Good Citizen, 118 Colum. L. Rev. 653,
663 (2018) (“[T]he good citizen should not hesitate to
open his bag, pocket, or home to the police, or to
otherwise consent to a search.”).
Plaintiff Larry Thompson brings this action
against defendant police officers pursuant to 42
U.S.C. § 1983. The litigation results from an encounter between police officers responding to a report of serious baby abuse and a new father intent
on protecting his family from what he believed to be
an unlawful forced entry into his apartment.
At 10:00 p.m. one evening in Brooklyn, plaintiff,
his wife, and their one-week old daughter were at
home preparing for bed. Four armed uniformed police officers arrived at their door seeking to enter
the apartment without a warrant. The officers were
there to investigate a partially corroborated 911 call
reporting that a child was being molested.
They believed the exigency of an ongoing possible
threat to a child’s safety justified their warrantless
entry. Thompson, with his child safe and well-cared
for in the back bedroom, believed otherwise. He
blocked them from entering and, according to the
officers’ testimony, pushed one of the officers. They
forced him to the ground, arrested him, handcuffing
him, and according to plaintiff, beat him. The report
of child abuse turned out to be false—the 911 call
came from a disturbed relative temporarily living in
plaintiff’s apartment. The child was never in any
danger.
Before the court are two vexing issues related to
plaintiff’s unlawful entry and malicious prosecution

13a
claims: first, which party bears the burden of proof
on the exigent circumstances exception to the warrant requirement; and, second, whether, as an element of his malicious prosecution claim, plaintiff
can establish that his criminal charges were terminated on the merits in his favor. This memorandum addresses both issues.
Background

II.
A.

Warrantless Entry

At about 10:00 p.m., on the night of January 15,
2014, plaintiff was home with his fiancé, now wife,
and new born baby in their Brooklyn apartment.
Trial Tr. 601:12–24, Jan. 25, 2019. The family was
getting ready to go to sleep. Id. at 601:22–24. The
Thompson’s were in their underwear. Id. at 601:20–
602:1. Earlier that day, the parents had taken their
one-week old daughter to her first doctor’s check-up.
Id. at 598:1–14. She received a clean bill of health.
Id. at 598:15–18.
His wife’s sister, Camille Watson, who was staying in the couple’s apartment, called 911. Trial Tr.
263:14–24, Jan. 24, 2019. She reported that her
week-old niece was being sexually abused by the
baby’s father at 339 Lincoln Place, Apt. 2E, in
Brooklyn. Trial Tr. 496:13–18, Jan. 25, 2019. She
identified the father as a 41-year-old black male,
roughly five feet five inches tall, and 150 pounds.
Id. Plaintiff met that description. See id. at 508:11–
509:8. She stated that the baby had red rashes on
her buttocks area. Id. at 496:13–18.
Two Emergency Medical Technicians (“EMT”)
were directed to the scene by radio to investigate
the report of child abuse. Id. at 456:20–25. They

14a
were met outside by a woman who did not identify
herself, but they assumed to be the 911 caller. Id. at
461:5–10. The female, later identified as Camille,
asked the EMTs to follow her. Id. at 461:12–14.
Camille led them into the apartment where they observed another woman holding a baby. Id. at
461:15–25. The EMTs were confronted by plaintiff.
Id. at 462:19–462:6. Thompson appeared angry and
asked them what they were doing in his apartment.
Id. at 463:20–464:18. He denied that anyone in the
apartment called 911. Id. at 464:12–18. The EMTs
told him that they might have the wrong address
and left. Id. at 464:19–21.
Police Officers Pagiel Clark, Paul Montefusco,
Gerard Bouwmans, and Phillip Romano received a
radio direction to respond to 339 Lincoln Place and
investigate a man fitting plaintiff’s description for
suspected child abuse. See id. at 503:7–504:9. The
call first came over as a report of “possible child
abuse,” but was later changed to an “assault in progress.” Trial Tr. 334:15–335:2, Jan. 24, 2019. The
EMTs informed the arriving officers that they received a report of a child being abused and they
needed to check on the baby. Trial Tr. 464:8-465:18,
Jan. 25, 2019; see also id. at 480:5–6 (“If we don’t
make patient contact, then we get in trouble.”).
They told the police officers that they had left the
apartment without examining the baby because
plaintiff seemed “aggressive” and they felt “uncomfortable.” See id. at 465:16–18, 478:3–479:9.
One officer knocked on the door of apartment 2E
and Thompson opened it. Id. at 510:10–16, 515:22–
516:2. The officers stood outside of the apartment
door. Id. at 510:17– 511:14. They were armed and
in uniform. Id. at 512:12–20. They told Thompson

15a
that they needed to enter the apartment. Trial Tr.
295:11–14, Jan. 24, 2019. He responded that they
were not coming in without a warrant and refused
to let them pass. Trial Tr. at 611:1–10, Jan. 25,
2019.
Officer Montefusco attempted to cross the
threshold. See id. at 523:2–15; Trial Tr. 303:23–
304:1, Jan. 24, 2019. Thompson blocked his path
and, according to the officers’ testimony, shoved Officer Montefusco. E.g., Trial Tr. 523:16–19, Jan 25,
2019; Trial Tr. 107:18–21, Jan. 23, 2019. The officers rushed in, pushing Thompson to the floor and
handcuffing him. Trial Tr. 524:2–10, Jan. 25, 2019.
Thompson testified that he did not resist arrest, but
that Officer Montefusco threw him to the ground
and began to choke him, while the other officers
kicked and punched him. Trial Tr. 711:24–712:15,
Jan. 28, 2019. Defendants contend that he resisted
arrest by flailing his arm preventing the officers
from placing handcuffs on him. Trial Tr. 570:16–
24, Jan. 25, 2019.
The officers entered the apartment with the
EMTs. Id. at 485:4-5. The EMTs observed red
marks on the baby’s buttocks but determined, after
taking the child to the hospital, there was only a diaper rash. See id. at 486:2–7; Pls.’ Summ. J., Ex. D,
Dillahunt Dep. 25:1–25. There was no evidence of
abuse. See Trial Tr. 486:2–7, Jan. 25, 2019.
Camille, who had called in the false report, suffered from mental illness. Trial Tr. 237:16–20, Jan.
24, 2019. The police sensed that she had some form
of mental dysfunction. Id. at 324:3–13.
Thompson was transported in a police patrol car
to the seventy-seventh precinct. Trial Tr. 538:16–

16a
22, Jan. 25, 2019. He requested medical attention
for back and neck pain, and was brought by two of
the officers to Interfaith Hospital. See id. at 539:9–
540:8; Def. Ex. F, Interfaith Hospital Medical Records, Jan. 16, 2014. An x-ray showed swelling, but
no permanent injury. See Def. Ex. F; Trial Tr.
636:23–637:1, Jan. 25, 2019. Pain medication and a
neck brace were prescribed. Trial Tr. 635:18–19,
Jan. 25, 2019; Trial Tr. 330:7–9, Jan. 24, 2019. He
was returned by the police to the precinct and then
was transported to Brooklyn Criminal Court. Trial
Tr. 637:12–638:7, Jan. 25, 2019.
B.

Dismissal of Plaintiff’s Criminal
Charges
i.

State Criminal Prosecution

Thompson was arrested on January 15, 2014 following the incident in his home. Id. at 530:11–
531:3. He was charged with obstructing governmental administration in the second degree, NYPL
§ 195.05, and resisting arrest, NYPL § 205.30. Id. at
531:24–532:7. A person is guilty of obstructing governmental administration in the second degree in
New York,
when he [or she] intentionally obstructs,
impairs or perverts the administration
of law or other governmental function or
prevents or attempts to prevent a public
servant from performing an official function by means of intimidation, physical
force or interference, or by means of any
independently unlawful act, or by means
of interfering . . . .
N.Y. Penal Law § 195.05.

17a
Under New York law, this crime has four elements: “(1) prevention or attempt to prevent (2) a
public servant from performing (3) an official function (4) by means of intimidation, force or interference.” Cameron v. City of New York, 598 F.3d 50, 68
(2d Cir. 2010). Police officers must be engaged in
lawful conduct to support an arrest for obstruction.
Kass v. City of New York, 864 F.3d 200, 207 (2d Cir.
2017) (“[T]he public servant must be performing an
official function that is ‘authorized by law.’” (citation
omitted)).
“‘Interference’ within the meaning of Section
195.05 must be a ‘physical interference.’” Basinski
v. City of New York, 706 F. App’x 693, 698 (2d Cir.
2017) (citing People v. Case, 42 N.Y.2d 98, 101
(1977)). “New York courts, however, have construed
‘physical interference’ broadly.” Id. (citing In re Davan L., 91 N.Y.2d 88, 91 (1997)). As the United
States Court of Appeals for the Second Circuit explained in Kass v. City of New York:
The [next] element is that an individual
must prevent or attempt to prevent a
public official from performing a lawful
official function by interfering with
that function. Although the interference must at least in part be “physical” and cannot consist solely of verbal
statements, an officer may consider
both words and deeds in determining
whether the individual’s conduct is sufficiently obstructive to justify an arrest.
Such interference can consist of inappropriate and disruptive conduct at the
scene of the performance of an official
function even if there is no physical

18a
force involved. This element of the statute is satisfied when an individual intrudes himself into, or gets in the way
of, an ongoing police activity.
864 F.3d at 207 (citations omitted).
A person is guilty of resisting arrest when he or
she “intentionally prevents or attempts to prevent a
police officer or peace officer from effecting an authorized arrest of himself or another person.” N.Y.
Penal Law § 205.30. Probable cause for resisting arrest arises only when there is probable cause for
charging some other crime. Curry v. City of Syracuse, 316 F.3d 324, 336 (2d Cir. 2003).
ii.

Criminal Court Appearances

Plaintiff was arraigned on January 17, 2014. After being held in custody for two days, he was released on his own recognizance. See Trial Tr. 658:4–
18, Jan. 25, 2019.
Thompson next appeared in court about two
months later. According to his testimony, he was
offered an Adjournment in Contemplation of Dismissal and told to “stay out of trouble and everything will go away.” Id. at 644:14–16. He rejected
this offer because he “ha[d] to see this to the end”
and “didn’t think . . . anything should be on [his]
record about this.” Id. at 644:18–645:4.
He returned to court a month later on April 9,
2014. At this hearing, his criminal charges were
dismissed “in the interest of justice” on motion of the
Brooklyn District Attorney. The entire transcript of
this hearing reads:

19a
Proceedings
COURT OFFICER: Calendar add-on
2014KN004196, Thompson.
MS. LUNN [defense counsel]: The people
have agreed to dismiss. It’s Mr. Scott’s
case. We advanced it from – –
MS. TIERNY: People are dismissing the
case in the interest of justice.
THE COURT: The matter is dismissed.
Def. Ex. B, Transcript of State Criminal Proceeding,
Apr. 9, 2014.
Neither the prosecution nor the court provided
any specific reasons on the record for the dismissal.
Nor was there any mention of the charges being
dismissed pursuant to New York Criminal Procedure Law (“CPL”) § 170.40, which is the section of
the CPL devoted to interest of justice dismissals.
Section 170.40 of the CPL requires the court to state
its reasons on the record for dismissing a matter in
the interests of justice. See N.Y. Crim. Proc. Law §
170.40 (“An order dismissing an accusatory instrument . . . in the interest of justice may be issued upon motion of the people or of the court itself as well
as upon that of the defendant. Upon issuing such
an order, the court must set forth its reasons therefor upon the record.”).
Plaintiff’s Certificate of Disposition states that
the charges were dismissed on motion of the District Attorney and indicates that the case was sealed
pursuant to CPL § 160.50. Pl. Ex. 5, Certificate of
Disposition, Apr. 8, 2015. This State sealing provision, entitled “Order upon Termination of Criminal
Action in Favor of the Accused,” is applicable only to

20a
those whose criminal actions were terminated in
their favor (as defined within CPL § 160.50(3)). See
N.Y. Crim. Proc. Law § 160.50.
iii.

Evidentiary Hearing

An evidentiary hearing was held on January 24,
2019 in federal court. Renate Lunn, a Legal Aid attorney and plaintiff’s former defense counsel, testified regarding her recollections of plaintiff’s criminal prosecution.
On direct examination, defense counsel Lunn
said she could not remember why the prosecutor
moved for dismissal. See Trial Tr. 209:19–24, Jan.
24, 2019. She testified that she had never filed a
motion to dismiss in the interest of justice. Id. at
207:23–25. She did recall making an oral motion to
dismiss for facial insufficiency on the ground that
the complaint did not lawfully state a crime. Id. at
210:6–9. The criminal court judge denied this motion and allowed her to put the motion in writing,
which she never did. Id. at 210:11–211:2.
Q Ms. Lunn, I bring your attention to
January 15th of 2014 where were you
employed?
A Legal Aid Society in New York City.
Q Did there come a time when you represented a gentleman named Larry
Thompson?
A Yes.
Q Do you remember what Larry Thompson was charged with?
A I’d have to refresh from my recollection
by looking at the complaint, but I be-

21a
lieve it was obstructing governmental
administration, resisting arrest.
Q Were you the assigned attorney for
Legal Aid Society for his case?
A Yes.
Q Did he plead guilty or was his case
dismissed?
A His case was dismissed.
Q Did you file a motion under the interest of justice to have the case dismissed?
A No.
Q Did you -- in your legal opinion, can
you just tell us what happened when you
went to court with this case for the best
of your recollection?
A The first time it was on, I think the
prosecution provided discovery. It was
adjourned -- well, after arraignment, it
was adjourned for discovery, we received
some discovery. And then, after that,
the next court date it was dismissed. . . .
Q Was there any evidence at all in the
case that this case was dismissed out of
sympathy for the accusation or for any ill
health reason that he had? . . .
A May I look at my notes to refresh my
recollection? I have notes from my conversation with prosecutors. . . . I’m just
looking. I don’t have any information
about health issues. And when I spoke to
the prosecutor, what I remember about

22a
this case was just being outraged at
the thought that someone could be arrested for obstructing governmental administration in his own home. But I
don’t have detailed notes about any sort
of sympathetic mitigating circumstances
like I would have if I was doing a motion for dismissal in the interest of justice.
Q Understood. Was there any discussion
that you recall between you and the
prosecutor that there was an inability to
proceed by the prosecutor due to a lack
of reasonable doubt -- lack of probable
cause that the case could continue in
court to a successful conclusion?
A I honestly don’t remember.
Q Okay. Was there any -- do you remember any specific evidence that was
brought out in the discovery? You
touched upon it that he was in his house,
that he was arrested, [do] you remember having a conversation with the
prosecutor or the judge that it would be
impossible to prosecute him for being in
his house and obstructing at the same
time?
A Yes. I made a motion at the arraignment to dismiss for facial sufficiency
which would be not in -- not out of mitigating circumstances, but because -- the
complaint doesn’t even state a crime. It
could not legally state a crime.
Q Was there an opposition to that?

23a
A I think it was asked [by the court] that
I put it in writing.
Q And did you?
A No. . . . The court denied any oral
application to dismiss without prejudice.
Q And asked you to put it in writing?
A Yes.
Q Subsequently, the D.A. -- did the
D.A. tell you they were moving to dismiss . . . ?
A Yes.
Q Did they say anything in regards to
that why anything that you recall
about that conversation?
A I don’t recall anything about the conversation.
Q Okay. And what was the time, from
the time that you made the oral application to dismiss, to the time that the
prosecutor said they’re going to dismiss
on their own, how long was that?
A I made the oral application at arraignment, and the actual dismissal
happened on the second adjourn date. . . .
Id. at 207:8–211:14.
Defense counsel Lunn was asked generally about
interest of justice dismissals under CPL § 170.40.
Q Isn’t it true, Ms. Lunn, that there is a
specific CPL provision regarding interest of justice dismissal[s] . . . ?
A Yes.

24a
Q Do you recall what that [is]?
A Off the top of my head, no, I remember we call it by the lead case. It’s
known as a Clayton motion in New York
City.
Q I believe it’s CPL 170.40.
A That sounds right. . . .
Q CPL 170.40 is the interest of justice
dismissal provision of the CPL; is that
correct?
A Yes. I recently filed such a motion or
drafted such a motion so I’m familiar
with the standards and the factors the
court should look at that are listed in
170.40.
Q Please tell us what you know about
the statute?
A It’s a motion that can be made . . . to
dismiss a case in the interest of justice.
There’s a series of factors that can be
looked at. History and character of the
defendant, the nature, if any, of police
misconduct. The effect that dismissing
the case would have on the community’s trust and faith in the criminal justice system. The level of guilt of the defendant and any harm that was done to
anybody. There’s a series of factors that
the court may consider not one is necessarily dispositive.
Q Do you recall if there’s a provision in
CPL 170.40 which requires the criminal
court, if it’s going to make a dismissal in

25a
the interest of justice, to state its reasons on the record?
A I don’t remember off the top of my
head.
Q Were any?
COURT: It says, “Upon issuing such an
order, the Court must set forth its reasons, therefore, on the record.”
Q Was that done?
A No.
Id. at 217:3–220:14.
On cross-examination, she was shown the transcript from the April 9, 2014 hearing. Id. at 212:1117. She testified that she did not remember any discussions taking place at the criminal court proceeding that were not contained in the transcript. Id. at
214:6-9.
Q Let the record reflect that I have
shown Ms. Lunn Defense Exhibit B.
Ms. Lunn, do you recognize that document?
A Yes.
Q What does it appear to be to you?
A A transcript of a proceeding in criminal court on April 9, 2014. . . .
Q And in what case does this transcript
pertain to?
A People v. Larry Thompson.
Q Is this the transcript for the underlying criminal case against Mr. Thompson
that this lawsuit is currently about?
A Yes.

26a
Q And what is the date on the transcript?
A April 9, 2014. . . .
Q Does that accurately reflect the conversation that took place before the
criminal court on the last day of the
underlying criminal case against the
plaintiff, Mr. Thompson?
A I don’t have an independent recollection to say. I don’t have any reason to
doubt it and I don’t have any reason
to believe that that’s more or less accurate than any other transcript. . . .
Q And is there any information or anything that was that you recall being
said at the last criminal court proceeding that’s not contained within this
transcript?
A Not that I recall but, of course, if we’d
been called to the bench to discuss it, or
if there had been some discussion that
was off the record that wouldn’t be in the
transcript but I don’t remember anything
like that. . . .
Q So you have no specific recollection.
Any other conversation for the court besides what’s contained in this transcript?
A Correct. . . .
Q And [the transcript] states, you state,
“The People have agreed to dismiss. It’s
Mr. Scott’s case. We advanced it from.” I
read that correctly; right?
A Yes.

27a
Q And Ms. Tierney speaks next. . . . Was
she an assistant district attorney?
A I believe so, but it doesn’t necessarily
mean she’s the one assigned to the case.
The way courts work in Brooklyn is that
there is one district attorney assigned to
a courtroom. So she’s handling all the
cases in the courtroom. It would be very
unlikely that it was her particular
case. . . .
Q I understand that, Ms. Lunn. But Ms.
Tierney was there on behalf of the People of the State of New York as an assistant district attorney prosecuting the
case on that day?
A Yes, correct.
Q Ms. Tierney states people are dismissing the case in the interest of justice?
A Correct. . . .
Q And then the next thing is the court
states the matter is dismissed; is that
right?
A Correct.
Q There’s no other information here?
A Correct.
Q You don’t make any statements according to this transcript after Ms.
Tierney said that the people are dismissing the case in the interest of justice; correct?
A Correct.

28a
Q And you stated earlier that you actually previously made a motion before the
court to have the case dismissed; right?
A Yes.
Q And that was orally denied; correct?
A Without prejudice.
Q But it was orally denied?
A Yes.
Q And there was no motion of yours
granted in this criminal case; correct?
A Correct.
Q Is there anything in this transcript that
affirmatively indicates that the case was
being dismissed because there was an
affirmative indication that the plaintiff
was innocent of the charges he was
charged of?
A Not in this transcript, no.
Q And it’s correct that the prosecutor
made the decision to dismiss the case;
right?
A Yes.
Id. at 212:11–216:18.
Defendants questioned her about the Certificate
of Disposition formally dismissing charges against
plaintiff.
Q First of all, . . . referring specifically to
Plaintiff’s Exhibit 5, the certificate of
disposition, you still have that document
in front of you; correct?
A Yes.

29a
Q It states that the case was dismissed
on motion of the D.A.; is that right, if
you refer your attention to the middle of
the case under case “disposition information,” do you see that about halfway
down the page?
A Yes, I see that. . . .
Q [U]nder “court action” it states, “Dismissed -- motion of D.A.” Correct?
A Correct.
Q And that’s actually what happened,
right, the case was dismissed on the
motion of the D.A.; right?
A Correct.
Q There’s nothing in this indicate that
[states] the dismissal of the criminal
charge affirmatively indicate that the
plaintiff was innocent of charges?
A Correct.
Q There’s nothing in the criminal court
transcript that indicates that the
plaintiff[’]s charges against him were
dismissed because there was an affirmative indication that he was innocent
of the charges; correct?
A Correct.
Q And it was you don’t know why the
district attorney’s office moved to dismiss the case, did you?
A No.
Id. at 220:19–221:21.

30a
In an exchange in the federal hearing, defense
counsel Lunn testified that she spoke with an assistant district attorney prior to the April 9, 2014 hearing and was told that the case would be dismissed.
She could not recall the specifics of this discussion.
Id. at 222:2–10. But the fact that she did not have
detailed notes on mitigating factors led her to believe that the discussion was purely about the legal
deficiencies of the case. Id. at 222:11–21. She added
that, based on her experience and the facts of the
case, she did not think it was lawful to arrest the
plaintiff for refusing to allow the police into his
home. Id. at 223:16–25.
COURT: Well, Ms. Lunn, you state on
the record, “The People have agreed to
dismiss.” Does that suggest that you had
a conversation with the prosecutor?
WITNESS: I did have a conversation
with the prosecutor before that court
date.
COURT: And what did you and the prosecutor say?
WITNESS: I honestly don’t remember.
In looking at my notes from my conversations with Mr. Thompson, I don’t
have a lot of notes on mitigating factors
and sympathetic factors about his work
history or his family history, so I don’t -but I’d be speculating as to exactly what
I was saying. I can only say that if I had
detailed notes, there’s some cases where
I might have detailed notes about
someone’s work history, their mental
health issues, what’s going on in their
lives. And so, those are things [that] I’m

31a
calling a prosecutor [with] and sharing
with them in the hopes of getting a
better disposition. The lack of those
notes in the file makes me leads me to believe that the conversation was just
about the fact that he was charged
with obstructing governmental administration in his own home that there was
a legal problem with the case. . . .
COURT: But you had made an oral
motion to dismiss [for facial insufficiency], had you not?
WITNESS: Yes.
COURT: And the court denied it?
WITNESS: Correct.
COURT: Asking you to put it in writing?
WITNESS: Correct.
COURT: Did you?
WITNESS: No.
COURT: Do you remember how you argued that motion? What you said?
WITNESS: May I look at the complaint?
May I have a moment to refresh my
recollection and look at the complaint?
. . . In order for a complaint charging
resisting arrest to be facially sufficient, there has to be an allegation
that of the arrest was lawful, and in this
complaint, the allegation is that the . . .
the police officers instructed Mr.
Thompson to allow them into his home
and he refused to let them into their
home. And in order to be placed under

32a
arrest, that was my understanding, and
it does not seem to me . . . a lawful arrest
to arrest someone for not allowing the
police into their home. . . . What I do
remember about the case when [plaintiff’s attorney] called me was the idea
that someone was arrested in their
home for not letting the police into
their home. And I think that’s what I
would have brought to the court’s attention that very first time that I saw the
complaint.
COURT: Anything you want to say that
may help decide what the nature of the
dismissal was? . . .
WITNESS: The nature of criminal court
as it’s practiced in New York City is that
there is an assigned attorney in each
courtroom who just has a stack of files
and handles stands up on every case and
that’s in front of them and their files
aren’t always detailed they’re just reading from whatever notes the actual assigned assistant district attorney assigned to particular cases has left for
them.
COURT: That may not be the assistant
speaking in court as indicated in the
record before us.
WITNESS: Exactly. So the assistant
speaking in court is not necessarily the
person who has reviewed the case and
made a decision about it. She is usually reading off of what’s call[ed] a status

33a
sheet, some sort of printout that her colleague has provided for her. . . .
COURT: You say on Line 3 the People
have agreed to dismiss Mr. Scott’s case
and the attorney for the state says the
People are dismissing the case. So she
made the motion but it was not her case;
is that correct?
WITNESS: Yes. I have in my notes that I
spoke to assistant district attorney Terry
Scott on April 3rd.
COURT: Does it show what you spoke to
him about.
WITNESS: No. All I wrote is, “They’ll
dismiss!” And then we agreed to advance the case to April 9th.
Id. at 221:24–225:21.
III.

Law
A. Burden of Proof for Exigency
i.

Exigent Circumstances Generally

“[A] principal protection against unnecessary intrusions into private dwellings is the warrant requirement imposed by the Fourth Amendment on
agents of the government who seek to enter the
home for purposes of search or arrest.” Welsh, 466
U.S. at 748. Warrantless searches inside a home
are illegal, unless an exception to the warrant requirement exists.
One exception is the presence of exigent circumstances. “[T]he essential question in determining
whether exigent circumstances justified a warrant-

34a
less entry is whether law enforcement agents were
confronted by an urgent need to render aid or take
action.” Loria v. Gorman, 306 F.3d 1271, 1284 (2d
Cir. 2002) (citation omitted). “[P]olice officers may
enter a dwelling without a warrant to render emergency aid to a person whom they reasonably believe
to be in distress and in need of that assistance.”
Tierney v. Davidson, 133 F.3d 189, 196 (2d Cir.
1998). They may do this if, based on the totality of
the circumstances known to the investigating officers at the time of entry, it was “objectively reasonable” for them to do so. See id.; Mincey v. Arizona,
437 U.S. 385, 393–94 (1978) (“[W]arrants are generally required to search a person’s home or his person unless ‘the exigencies of the situation’ make the
needs of law enforcement so compelling that the
warrantless search is objectively reasonable under
the Fourth Amendment.” (citation omitted)).
ii.

Other Circuit Precedent

In criminal cases, it is well-established that the
police officers bear the burden of proving exigent
circumstances. See, e.g., Welsh, 466 U.S. at 749–750
(“[E]xceptions to the warrant requirement are few
in number and carefully delineated, and . . . the police bear a heavy burden when attempting to
demonstrate an urgent need that might justify warrantless searches or arrests.”); Kentucky v. King,
563 U.S. 452, 474 (2011) (“[T]he police bear a heavy
burden . . . when attempting to demonstrate an urgent need that might justify warrantless searches.”).
The law is less clear in a civil action under 42
U.S.C. § 1983. There is a split among the circuit
courts over which party has the burden of proof in
civil cases.

35a
The United States Court of Appeals for the
Third, Sixth, Ninth, and Tenth Circuits have assigned the burden of proof on the government. See
Parkhurst v. Trapp, 77 F.3d 707, 711 (3d Cir. 1996);
Hardesty v. Hamburg Township, 461 F.3d 646, 655
(6th Cir. 2006) abrogated on other grounds by Morgan v. Fairfield Cty., Ohio, 903 F.3d 553 (6th Cir.
2018); Hopkins v. Bonvicino, 573 F.3d 752, 764 (9th
Cir. 2009); Armijo ex rel. Armijo Sanchez v. Peterson,
601 F.3d 1065, 1070 (10th Cir. 2010). These courts
generally rely on criminal cases for support. See,
e.g., Armijo ex rel. Armijo Sanchez v. Peterson, 601
F.3d at 1070 (citing United States v. Reeves, 524
F.3d 1161, 1169 (10th Cir. 2008) (reversing district
court’s denial of criminal defendant’s motion to
suppress evidence obtained in violation of the
Fourth Amendment)).
By contrast, the United States Court of Appeals
for the Seventh and Eighth Circuits have placed the
burden of proof on the plaintiff. Bogan v. City of
Chicago, 644 F.3d 563, 568 (7th Cir. 2011); Der v.
Connolly, 666 F.3d 1120, 1128 (8th Cir. 2012). They
base their conclusion largely on what they describe
as the “established principles governing civil trials,”
refusing to adopt the criminal governmental burden
in civil actions. E.g., Bogan v. City of Chicago, 644
F.3d at 570 (“[E]mploying a criminal burden of proof
is contrary to established principles governing civil
trials, namely, that the ultimate risk of nonpersuasion must remain squarely on the plaintiff.” (citations omitted)); cf. Crowder v. Sinyard, 884 F.2d
804, 824 (5th Cir. 1989) (“Applying the longstanding rule that the plaintiff bears the burden of
proving each essential element of a claim, we agree
that the court erred in placing upon the defendants

36a
the burden of proof” with respect to the plain view
exception to the warrant requirement.).
iii.

Second Circuit Precedent

The leading case in the United States Court of
Appeals for the Second Circuit on this issue appears
to be Ruggiero v. Krzeminski, 928 F.2d 558 (2d Cir.
1991). It indicates that the court shares the apparent view of the Seventh and Eighth circuits.
In Ruggiero, plaintiffs brought § 1983 claims for
an unlawful search alleging that defendant police
officers’ warrantless search of their home was not
excused by one of the exceptions to the warrant requirement, such as consent. Id. at 560.
A question on appeal was whether the trial judge
erred by failing to instruct the jury that the burden
of proving an exception to the Fourth Amendment
warrant requirement rested on the defendants. Id.
at 562. The court expressly rejected the argument
that once a plaintiff established that the search was
not authorized by a warrant, the burden shifted to
the defendant to prove that the search was justified
by a specific exception. See id. at 563. It explained:
It is true that searches and seizures
conducted without warrants are presumptively unreasonable. The operation
of this presumption, contrary to the
Ruggieros’ contention, cannot serve to
place on the defendant the burden of
proving that the official action was reasonable. Rather, the presumption may
cast upon the defendant the duty of producing evidence of consent or search incident to an arrest or other exceptions to

37a
the warrant requirement. However, the
ultimate risk of nonpersuasion must remain squarely on the plaintiff in accordance with established principles
governing civil trials. See Fed.R.Evid.
301. We see no reason to depart from
the usual allocation of burdens in a civil
trial.
Id. (emphasis added) (citations omitted).
The Court of Appeals for the Second Circuit has
not overruled Ruggiero. See Tirreno v. Mott, 375 F.
App’x 140, 142 (2d Cir. 2010) (providing a summary
of Second Circuit precedent post-Ruggiero). It continues to cite it approvingly in cases involving the
exigent circumstances exception. See, e.g., Harris v.
O’Hare, 770 F.3d 224, 234 n.3 (2d Cir. 2014), as
amended (Nov. 24, 2014) (“Of course, as in all civil
cases, ‘the ultimate risk of non-persuasion must remain squarely on the plaintiff in accordance with
established principles governing civil trials.”‘ (citing
Ruggiero, 928 F.2d at 563)); Tierney v. Davidson,
133 F.3d at 196 (“A[n] . . . important distinction is
that the burden in the state [criminal] action was on
the state to prove that an exception to the warrant
requirement applied, whereas [in civil cases] the
burden is on [the plaintiff] to establish that the
search was unlawful.” (citing Ruggiero, 928 F.2d at
563)); cf. Jackson v. City of New York, 29 F. Supp. 3d
161, 176 n.20 (E.D.N.Y. 2014) (stating that the presumption that warrantless searches are unreasonable “does not shift the burden of persuasion to defendants” (citing Ruggiero, 928 F.2d at 563)).
Yet, some uncertainty apparently remains regarding the scope and propriety of the Second Cir-

38a
cuit’s policy. Post-Ruggiero, the court has, on occasion, adopted the criminal burden of proof in civil
cases involving exceptions to the warrant requirement. In Anobile v. Pelligrino, 303 F.3d 107 (2d Cir.
2002), a § 1983 action challenging the lawfulness of
a warrantless search, the court neither distinguished nor cited Ruggiero for its assertion that
“[t]he official claiming that a search was consensual
has the burden of demonstrating that the consent
was given freely and voluntarily.” Id. 124 (citation
omitted). Similarly, in Loria v. Gorman, 306 F.3d
1271 (2d Cir. 2002), a § 1983 case alleging unlawful
entry, the court failed to cite Ruggiero, instead relying on Welsh v. Wisconsin, for its conclusion “that
the police bear a heavy burden when attempting to
demonstrate an urgent need that might justify warrantless searches or arrests.” Id. at 1284–85 (citation omitted). Some district courts in this circuit
have placed the burden of persuasion on the police.
See, e.g., Webster v. City of New York, 333 F Supp.
2d 184, 194 (S.D.N.Y. 2004) (“Before agents of the
government may invade the sanctity of the home,
the burden is on the government to demonstrate exigent circumstances that overcome the presumption
of unreasonableness that attaches to all warrantless
home entries.” (citation omitted)); Palmieri v Kammerer, 690 F Supp. 2d 34, 44-45 (D Conn 2010) (“The
police officer, however, bear[s] a heavy burden when
attempting to demonstrate an urgent need.” (alteration in original) (citation omitted)).
iv.

Burden Shifting

Ruggiero recognizes that warrantless searches
create a presumption of unreasonableness that
“may cast upon the defendant the burden of
produc[tion].” Id. at 563. But it maintains “estab-

39a
lished principles governing civil trials” require that
the burden of persuasion remains with the plaintiff.
Id.; cf. Texas Dept. of Community Affairs v. Burdine,
450 U.S. 248, 255–56 (1981) (finding that, in employment discrimination cases, while defendant carries the burden of production to rebut plaintiff’s
prima facie case of discrimination, plaintiff retains
the burden of persuasion); United States v.
$557,933.89, More or Less, in U.S. Funds, 287 F.3d
66, 76 n.5 (2d Cir. 2002) (noting how the Civil Asset
Forfeiture Reform Act of 2000 overhauled civil forfeiture procedure by placing the burden of proving,
by a preponderance of the evidence, the right to forfeiture on the government, who acts as the plaintiff).
The Second Circuit relies on the presumption definition, Federal Rule of Evidence 301, for the proposition that the burden of persuasion on exigency
does not shift to the police. Ruggiero, 928 F.2d at
563. This is what Rule 301 states (emphasis added):
In a civil case, unless a federal statute or
these rules provide otherwise, the party
against whom a presumption is directed
has the burden of producing evidence to
rebut the presumption. But this rule does
not shift the burden of persuasion, which
remains on the party who had it originally.
It is not necessary, however, to use “presumptions”
at all, rather than a plain unvarnished “burden of
proof” analysis.
The present rule placing pleading and proof burdens on plaintiffs in civil cases is not absolute. For
example, the Second Circuit has held in false arrest
cases that when an arrest is made without a war-

40a
rant, the defendant bears the burden of proving
probable cause as an affirmative defense. See, e.g.,
Mitchell v. City of New York, 841 F.3d 72, 77 (2d
Cir. 2016); Raysor v. Port Auth. of New York & New
Jersey, 768 F.2d 34, 40 (2d Cir. 1985) (“[A] deprivation of liberty without ‘reasonable cause’ is a section
1983 violation as to which the defendant bears the
burden of proving reasonableness . . . .” (citations
omitted)); Dickerson v. Napolitano, 604 F.3d 732,
751 (2d Cir. 2010). The Second Circuit has also held
that, in customs forfeiture actions under 19 U.S.C.A.
§ 1595a, once the government demonstrates probable cause that the merchandise was used in illegal
activities, the burden of persuasion then shifts to the
claimant to show, by a preponderance of the evidence, that the merchandise is not subject to forfeiture. See United States v. Davis, 648 F.3d 84, 96
(2d Cir. 2011); 19 U.S.C. § 1615.
v.

Burden of Proof Problem

The Court of Appeals—like most courts—relies
upon the often-confusing concept of presumptions in
its analysis. See Ruggiero v. Krzeminski, 928 F.2d
at 563. Instead, it should, it is respectfully suggested, rely on a clean and clear burden of proof analysis
eliminating any reference to presumptions.
The issue before the court can best be summed
up as a simple burden of proof problem. The burden
is on the police to supply a warrant or some other
rationale for entry into a person’s home, such as “exigent circumstances” or “consent” or “hot pursuit.”
See Weinstein’s Federal Evidence § 301App.01[4] at
301 App.–11 (2d ed. 2009) (“The considerations that
determine which party shall bear responsibility for a
particular aspect of the case are policy, fairness, and

41a
probability. . . . As a matter of policy, imposing the
burden on plaintiff serves to handicap recovery in
[certain] cases. Fairness suggests access to evidence,
ease of proof, and perhaps general considerations of
credibility.”). This is not a problem of presumptions—a foggy term that should be avoided for it
can be confusing to judges and juries. See Fed. R.
Evid. 301 advisory committee’s note to 1974 Enactment (explaining courts’ duties when instructing
parties on presumptions). The federal rule on presumptions—stating that presumptions should not
shift burdens—was ultimately written after much
dispute. See Daniel J. Capra, Advisory Committee
Notes to the Federal Rules of Evidence That May Require Clarification 4 (Federal Judicial Center, 1998)
(“[Rule 301] is the culmination of a battle between
two conflicting views on the effect a presumption
should have. . . . The practical difference is in the
quality and quantity of evidence required to overcome the presumption.”).
By using the term “presumption” rather than
“burden of proof”—which a jury can easily understand since a burden of proof definition is specifically, and clearly, written in the charge—the Court of
Appeals has weakened the legal protections of the
Fourth Amendment. It has confused this issue, ignoring the fundamental importance of a person’s
constitutionally protected right to be free from unreasonable searches and seizures inside his or her
home.
Rigid, mechanical approaches should not be
adopted when assigning burdens in unlawful entry
cases. In support of an argument for protecting high
standards to prove exigent circumstances, one au-

42a
thor cites to Justice Bradley in Boyd v. United
States, 116 U.S. 616, 635 (1886):
It may be that it is the obnoxious thing
in its mildest and least repulsive form;
but illegitimate and unconstitutional
practices get their first footing in that
way, namely, by silent approaches and
slight deviations from legal modes of
procedure. This can only be obviated by
adhering to the rule that constitutional
provisions for the security of person and
property should be liberally construed.
A close and literal construction deprives
them of half their efficacy, and leads to
gradual depreciation of the right, as if it
consisted more in sound than in substance. It is the duty of courts to be
watchful for the constitutional rights of
the citizen, and against any stealthy
encroachments thereon.
Adrienne Lewis, Comment, The Fourth Amendment–
The Burden of Proof for Exigent Circumstances in a
Warrantless Search Civil Action, 65 SMU L. Rev.
221, 226–27 (2012). “The literal construction of
burdens of proof in civil cases,” she concludes, “is
exactly the type of silent approach that leads to the
‘gradual depreciation of the right’ that Justice Bradley speaks of.” Id. at 227.
“Allocating burdens of persuasion involves distinct substantive policies favoring one class of litigant over another.” Jack B. Weinstein, Norman
Abrams, Scott Brewer & Daniel S. Medwed, Evidence Cases and Materials 1351 (10th ed. 2017).
The Second Circuit Court of Appeals has chosen to

43a
shift the odds towards the defendants, in effect, diminishing a plaintiff’s ability to enforce his or her
constitutionally protected rights as a householder.
This appellate decision subverts the express will of
the United States Constitution, which explicitly favors the rights of the house-dweller over that of police officers. The burden should be on governmental
officials seeking to enter a home without a warrant.
See, e.g., Payton v. New York, 445 U.S. 573, 587
(1979) (“[A] greater burden is placed . . . on officials
who enter a home or dwelling without consent.
Freedom from intrusion into the home or dwelling is
the archetype of the privacy protection secured by
the Fourth Amendment.” (citation omitted)).
B.

Termination in Favor of the Accused

As part of a § 1983 malicious prosecution claim, a
plaintiff must prove his state criminal proceeding
was terminated in his favor. See Murphy v. Lynn,
118 F.3d 938, 947 (2d Cir. 1997). “In general, the
question of whether a termination was favorable to
the accused is a matter of law for the court, but
where questions remain as to the reason for the
termination, this becomes an issue of fact for the
jury.” Rodriguez v. City of New York, 291 F. Supp.
3d 396, 413–14 (S.D.N.Y. 2018). “A dismissal out of
mercy is not a favorable termination because mercy
presupposes the guilt of the accused.” Arum v. Miller, 273 F. Supp. 2d 229, 234-35 (E.D.N.Y. 2003) (citation omitted).
“[A] plaintiff asserting a malicious prosecution
claim under § 1983 must . . . show that the underlying criminal proceeding ended in a manner that affirmatively indicates his innocence.” Lanning v.
City of Glens Falls, 908 F.3d 19, 22 (2d Cir. 2018);

44a
see also Thompson v. City of New York, No.
17CV3064(DLC), 2019 WL 162662, at *3 (S.D.N.Y.
Jan. 10, 2019) (holding that plaintiff cannot show
his criminal case was favorably terminated because
his dismissal on speedy trial grounds does not affirmatively indicate his innocence). “[W]here a dismissal in the interest of justice leaves the question
of guilt or innocence unanswered. . . . it cannot provide the favorable termination required as the basis
for [that] claim.” Lanning, 908 F.3d at 28–29 (citation omitted); see also Hygh v. Jacobs, 961 F.2d 359,
368 (2d Cir. 1992) (“A dismissal in the interest of
justice is neither an acquittal of the charges nor a
determination of the merits,” thus leaving open the
question of innocence or guilt. (citation omitted)).
IV.

Application of Law
A. Exigency Burden

The Second Circuit’s reasoning in Ruggiero is arguably broad enough to place the burden of proving
all exceptions to the warrant requirement, including
exigency, on the plaintiff. But subsequent cases
seem to go in the other direction, placing the burden
of proving exigent circumstances in § 1983 actions
on the government. And its apparent suggestion
that the burden of persuasion never shifts to the defendant in civil trials is belied by other Second Circuit precedent.
Although the law in this circuit remains unclear,
it appears that the current rule is that the plaintiff
bears the burden of proof for exigent circumstances.
This seems wrong as policy: the burden of proving
an urgent need so compelling that it justifies a warrantless entry should generally rest with the government. Unlike consent, the facts that establish

45a
exigent circumstances are uniquely within the
knowledge of the police officers. Whether there was
a need to render emergency aid so compelling requiring immediate action is wholly dependent upon
the facts often known only to the police officer at the
time of the warrantless entry. The evidence available at the time to the householder is irrelevant. As
is rightfully understood in the criminal context, police officers should bear a heavy burden when overcoming a person’s fundamental right to be secure in
the home from unreasonable searches and seizures.
There is no sound basis in law for this principle not
to extend to civil matters.
This is a simple problem of allocating the burden
of proof. Since the Fourth Amendment has already
chosen to favor a person’s right inside his own dwelling over that of the police officer’s right of entry,
courts should do the same by placing the burden on
police officers to prove that exigency justified their
warrantless entry. See Lewis, supra, at 227 (“The
[court’s] holding is inconsistent with the Supreme
Court’s motivation to limit the situations where exigent circumstances make warrantless searches reasonable because it could lead to a situation where a
plaintiff alleging violation of his civil rights is left
without the ability to . . . defend those civil rights.
The spirit of the Fourth Amendment is to give protective rights to citizens.”); cf. See Capra, supra, at 4
(“The Advisory Committee reasoned that presumptions are based on a combination of probability and
fairness. If that combination of factors is strong
enough to warrant a presumption, it should also be
strong enough to shift the risk of nonpersuasion to
the party against whom the presumption operates.”)

46a
B.

Favorable Termination

Plaintiff failed to satisfy the favorable termination element of his § 1983 malicious prosecution
claim as a matter of current Second Circuit law.
Based on the facts and law of this unusual case,
where there was substantial evidence that the officers’ warrantless entry was lawful and the plaintiff
pushed, or at minimum physically interfered with, a
governmental official, plaintiff cannot establish that
his obstruction charge was dismissed in a manner
affirmatively indicative of his innocence. See Lanning v. City of Glens Falls, 908 F.3d at 25 (2d Cir.
2018) (“[F]ederal law defines the elements of a §
1983 malicious prosecution claim . . . [and] requir[es]
affirmative indications of innocence to establish ‘favorable termination’ . . . .”).
The federal court’s ruling against defendant
should not be based on the District Attorney moving
to dismiss the criminal charges “in the interest of
justice” at the April 9, 2014 hearing. Such a broad
ruling risks eviscerating malicious prosecution
claims altogether. It would give prosecutors almost
unlimited power to bar such claims, regardless of
the strength or weakness of the underlying accusations. They could insulate police officers and district
attorneys simply by repeating the phrase “in the
interest of justice” in all cases they sought to discontinue for any reason. More must be required to
qualify as an interest of justice dismissal that could,
in effect, foreclose future claims for malicious prosecution. See Burke v. Town of E. Hampton, No. 99CV-5798, 2001 WL 624821, at *12 (E.D.N.Y. Mar.
16, 2001) (“In this Circuit, it is well established, as a
matter of law, that ‘[a dismissal in the interests of
justice] cannot provide the favorable termination

47a
required as the basis for a claim of malicious prosecution.’” (alteration in original) (citation omitted)).
In the present case, evidence was presented suggesting plaintiff’s innocence. His case was sealed
pursuant to CPL § 160.50, a provision for criminal
prosecutions terminated in favor of the accused. He
testified that he was offered an Adjournment in
Contemplation of Dismissal at his second court date
and told that if he accepted this offer, and stayed out
of trouble, it would all “go away.” Trial Tr. 644:5–
16, Jan. 25, 2019; but see Stampf v. Long Island
R.R. Auth., No. 07-CV-3349 SMG, 2011 WL
3235704, at *3 (E.D.N.Y. July 28, 2011) (“[A]n adjournment in contemplation of dismissal is defined
as a favorable termination pursuant to Section
160.50(3)(b), yet well-settled case law establishes
that it is not a favorable termination for purposes of
a malicious prosecution claim.” (citation omitted))
aff’d in part, vacated in part sub nom. Stampf v.
Long Island R. Co., 761 F.3d 192 (2d Cir. 2014).
When his case was dismissed on motion of the
Brooklyn District Attorney at the April 9, 2014
hearing, the prosecutor merely stated that the dismissal was “in the interest of justice.” Def. Ex. B.
There was no formal entry of an “interest of justice”
dismissal pursuant to CPL § 170.40 (the State statute governing interest of justice dismissals). The
court did not give its reasons on the record for a
dismissal in the interest of justice, as required under
State law. See New York Crim. Proc. L. § 170.40.
There is little, if any, evidence that sympathy for the
accused was a factor in the dismissal.
Plaintiff’s defense attorney, Renate Lunn, testified credibly about her recollections of plaintiff’s

48a
case. She said she never filed a motion for dismissal
in the interest of justice. Trial Tr. 207:23–25, Jan.
24, 2019. She recalled making an oral motion to
dismiss without prejudice for facial insufficiency,
which was denied by the judge. Id. at 210:6–22; see
Russell v. Journal News, 672 F. App’x 76, 78-79 (2d
Cir. 2016) (finding that a dismissal without prejudice based on facial insufficiency does not constitute
a favorable termination because it is not a decision
on the merits).
Defense counsel Lunn did not remember why the
District Attorney moved to dismiss the case. She
testified that, based on her experience, it would have
been unlawful to prosecute Thompson for “not allowing the police into [his] home.” Trial Tr. 223:16–
25, Jan. 24, 2019. She recalled speaking to an assistant district attorney prior to the April 9, 2014 hearing and being told that the charges would be dismissed. Id. at 225:15–21. She observed that her
notes did not contain any mention of mitigating circumstances, which she typically would have written
down if she were seeking to persuade a prosecutor
to dismiss a case out of mercy. Id. at 222:5–16. This
indicates to her that the conversation with the assistant district attorney only concerned the legal
shortcomings of the criminal case against Thompson. Id. at 222:17–21.
Left open is the question of how much evidence
must be supplied by a plaintiff to show that the
dismissal was essentially for innocence. Courts addressing this question should not forget that, in our
criminal justice system, the accused are deemed innocent until proven guilty beyond a reasonable
doubt. See Coffin v. United States, 156 U.S. 432, 453
(1895) (“The principle that there is a presumption of

49a
innocence in favor of the accused is the undoubted
law, axiomatic and elementary, and its enforcement
lies at the foundation of the administration of our
criminal law.”). The assumption of innocence remains with a defendant throughout a case and is
not overcome until either a plea is taken or a guilty
verdict is returned. Thus, any ambiguity on whether the dismissal was on the merits should be decided
in defendant’s favor.
Conclusion

V.

A. Exigent Circumstances Burden
The general rule in civil cases-predicated on
sound constitutional policy-should place the burden
on police officers to prove, by a preponderance of the
evidence, exigent circumstances justifying a warrant
less entry. Placing the burden of persuasion on the
civilian plaintiff is a repeated injustice that should
stop now.
B.

Malicious Prosecution

Plaintiff’s malicious prosecution claim should be
treated as if it was on the merits—i.e., the defendant was not guilty. An ambiguous state dismissal
should be accepted as being based on non-guilt, in
part because of the assumption of innocence before
conviction.
SO ORDERED
/s/ Jack B. Weinstein
Jack B. Weinstein
Senior United States District Judge
Date: March 12, 2019
Brooklyn, New York

50a
APPENDIX D
[683] UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
LARRY THOMPSON,
Plaintiff,
– versus –
PAGIEL CLARK, et al,
Defendants.

14 CV 7349(JBW)
U. S. Courthouse
225 Cadman Plaza
East
Brooklyn, New York
January 28, 2019
8:30 a. m.

TRANSCRIPT OF CIVIL CAUSE FOR JURY TRIAL
BEFORE THE HONORABLE JACK WEINSTEIN
UNITED STATES DISTRICT JUDGE
APPEARANCES
Attorneys for Plaintiff:
CARY LONDON, ESQ.
30 Broad Street, Suite 702
New York, New York 10004
DAVID ZELMAN, ESQ.
612 Eastern Parkway
Brooklyn, New York 11225
Attorneys for Defendants:
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, New York 10007
BY: PHILIP DEPAUL, ESQ.
KAVIN THADANI, ESQ.
Court Reporter:
LISA SCHMID, CCR, RMR
Official Court Reporter
225 Cadman Plaza East
Brooklyn, New York 11201
Phone: 718-613-2644 Fax: 718-613-2379

51a
[684] PROCEEDINGS
(In open court, outside the presence of the jury.)
THE CLERK: Civil Cause on Trial, Thompson versus
Clark, et al.
THE COURT: Sit down, everybody.
First, do I have a hard copy of the first?
First problem I want to raise with you is the issue of
the photograph. It is clear in the photograph of plaintiff that there’s a break in the skin above one of the
eyes, which shows or arguably shows that he was
thrown—his head was thrown to the ground, and
caused this injury.
The defendants want to get in it?
MR. DEPAUL: Your Honor, if I can just interrupt you?
We’re not entering in the photograph.
THE COURT: Okay.
Does the plaintiff want to put it into evidence?
MR. LONDON: Not at this time, Your Honor.
THE COURT: Well, when is the time?
MR. LONDON: No. So no.
THE COURT: All right. Under those circumstances.
The ruling that I made that it wasn’t sufficiently complicated
is not being challenged by either party, correct?
MR. LONDON: Yes, Your Honor.
THE COURT: Okay.
Now, I have distributed to you two for each side, my
draft of the jury charge and verdict sheet on which I

52a
made some [685] handwritten comments and will now
begin to go over it, page by page, for you to see the
changes on I want to make.
But before going over it, I want to tell you that after
very serious consideration and flipping back and forth
on the point or points, I’ve decided to put the burden
of proof of non-exigency on the plaintiff, based on Ruggiero and the other cases. That have been well cited
by the briefs.
THE COURT: And also to support the argument of
the—agreed with the argument of the defendants.
MR. LONDON: So malicious prosecution and exigent
circumstance are on the plaintiff?
THE COURT: On the plaintiff, that’s what I said, exigency.
MR. LONDON: I understand.
THE COURT: That there’s no sufficient basis for finding that the dismissal of the criminal case was on the
merits. It seems to me very clear that it was based on
the lack of proof, and that the proposal by the district
attorney and finding by the judge was essentially not
based on criminality and incidents, but based essentially on factors, other factors.
MR. LONDON: So you’re dismissing mal pros?
THE COURT: Yes.
MR. ZELMAN: Your Honor, may I be heard briefly on
that point?
[686] THE COURT: Yes, you can.
I must say that I disagree on the both points, on what
I find the Second Circuit law is, because essentially,

53a
the point that dismissing on justice which most dismissals are on justice—essentially wipes this cause of
action off the books.
MR. ZELMAN: All right, Your Honor. First of all, I
would like to point out on exigency, Ruggiero places
the burden of production on the defense. I don’t disagree necessarily that we have to show non-exigency,
but the burden of proof of production is on them as its
defense.
But my main point—
THE COURT: But that’s been shown.
MR. ZELMAN: Okay. The second point, Your Honor—
THE COURT: And burden-shifting is something I’m
not going to explain to the jury.
MR. ZELMAN: Okay. Understood.
THE COURT: So, since it’s very clear that their exigency defense is supported, it’s clearly met the burden
of dissuasion—I mean of production.
MR. ZELMAN: This is the main point, Your Honor.
You said I think correctly: The dismissal was not on
the merits. It was based on a lack of proof.
THE COURT: Right.
MR. ZELMAN: That is, under the Second Circuit, a
[687] favorable termination.
THE COURT: (Nods head affirmatively.)
MR. ZELMAN: And the reason it’s a favorable determination is because where there is a lack of evidence
to proceed, that is sufficient to show that the plaintiff
has had the case dismissed in his favor.

54a
THE COURT: I agree with you completely on that, as
a matter of policy.
For one thing, the defendant is presumed to be innocent, unless in that posture by the ambiguous basis
for the motions to dismiss by the district attorney,
that’s where we are. So, for policy reasons, I agree
with you completely, but I don’t think the cases support you.
MR. ZELMAN: It does. If you—I don’t know if Your
Honor read my trial brief on this point.
THE COURT: I did. I thought your brief was very
good, but I don’t think it meets the Second Circuit’s
view. Yes.
MR. ZELMAN: The cases that I cited show exactly the
same circumstances that we’re dealing with here. A
district attorney makes a motion, says in essence, I
can’t prove this case, and the courts have found that
that’s is a favorable termination. To put anymore burden on a criminal defendant is to wipe out the cause
of action.
THE COURT: I recognize that. I said that at the [688]
outset. In effect, it sweeps this cause of action off the
books because almost every dismissal by the district
attorney is going to be on this basis that was used
here—
MR. ZELMAN: And I think that—
THE COURT:—not on the basis of innocence?
MR. ZELMAN: I think the problem here, Judge is—
you read the Lanning decision, but it’s one decision,
and it’s specifically in dealing with an interested justice dismissal. That’s where that case is couched.
It’s—the case is dismissed pursuant to 170.40.

55a
THE COURT: You’re talking about Lanning?
MR. ZELMAN: In Lanning.
THE COURT: Lanning is decided November 7th,
2018.
MR. ZELMAN: Correct.
THE COURT: It’s the freshest decision we have on a
procedure that the Second Circuit itself admits was
confusing.
MR. ZELMAN: But what I think is—you’re reading it
too broadly, is what I feel. It was not intended to usurp
all of the favorable determination case law that’s been
established to date by the Second Circuit, and that’s
why I’m saying it needs to be couched in terms of interested justice dismissal, which this is not and that
case was. It was a recent pronouncement, but it was
not intended.
THE COURT: Quote, I’ve got a printout, page seven:
“We write to dispel any confusion among district
courts. Also, [689] eliminated in favor of the accused
only when their final disposition such as to indicate
the accused is not guilty.”
MR. ZELMAN: That’s what happened here. One of the
reasons, Judge, it happened here is we heard testimony from the plaintiff that he went in the first time
and they offered him an ACD, Adjournment in Contemplation of Dismissal. He rejected that. He said, I
don’t want the ACD. He comes back to court, and the
prosecutor dismisses the charge, unilaterally—
THE COURT: Right.
MR. ZELMAN:—without anything that he needed to
do, out of his control.

56a
THE COURT: Right.
MR. ZELMAN: That is indicative of innocence because
he rejected the plea and he said, I am not going to take
any type of plea, even a plea that dismisses the case.
So, this—I think when they say indicative of innocence, what they’re saying is that the circumstances
surrounding it demonstrate that there was a lack of
evidence to proceed, and that he was innocent, that
the judge is not required to say you are innocent,
which Mr. London said for his 20 years of experience,
never happens, ever. So—
THE COURT: Well, we have a case where the evidence is highly probative that he wasn’t innocent, that
he did block them. Right?
Isn’t that the contention of the defendants?
[690] MR. DEPAUL: Yes, Your Honor.
MR. THADANI: (Nods head affirmatively.)
MR. ZELMAN: Of course, he was in his own apartment. He blocked them. We have testimony from Ms.
Lund saying that there was no way in her experience
there ever could be a prosecution against him for
standing in his door saying, I would like to speak to a
supervisor about this, which is what he did.
THE COURT: Like any other sensible attorney for the
defendant, she didn’t say, judge, please say on the record that this is for the merits. That would be insane.
MR. ZELMAN: Correct.
THE COURT: So that’s where the Second Circuit
leaves you, in my opinion.
MR. ZELMAN: I don’t think that is what they intended. They said indicative of innocence. And this is

57a
a case at the very least Your Honor, is not an issue of
law for the Court to decide, but could be an issue for
the jury to decide whether this is indicative of innocence. We heard only yesterday—
THE COURT: This is not the case where I’m going to
buck the Second Circuit. I don’t want to try this case
again, because the evidence of criminality by the
plaintiff is—I don’t say I would find it that way, but it
was very high.
MR. ZELMAN: Very what?
THE COURT: High. Why should the DA dismiss on
the [691] merits. Anyway, that’s what I’m deciding.
And I tell you, I’ve been back and forth in my own
mind a half a dozen times because I think that the
policy is wrong, and I think the policy on exigency is
wrong, but this is not the case where I’m going to buck
the Second Circuit. I’ll wait for a more favorable case.

